NATIONAL CREDIT UNION ADMINISTRATION

       OFFICE OF INSPECTOR GENERAL




                MATERIAL LOSS REVIEW OF
                   ST. PAUL CROATIAN
                 FEDERAL CREDIT UNION
                           Report #OIG-10-16
                            October 7, 2010




                           William A. DeSarno
                           Inspector General



Released by:                            Auditor-in-Charge:




James Hagen                             Charles Funderburk
Deputy Inspector General                Senior Auditor
                                 CONTENTS


Section                                                           Page



   I      EXECUTIVE SUMMARY                                        1

  II      BACKGROUND                                               4

  III     OBJECTIVES, SCOPE AND METHODOLOGY                        6

  IV      RESULTS                                                  8

              Why St. Paul Croatian Federal Credit Union Failed    8

              NCUA Supervision of St. Paul Croatian FCU           12

              Observations and Lessons Learned                    26


 APPENDICES

  A           Examination and Supervision History                 28

  B           Risk Indicators                                     30

  C           Enforcement Actions                                 33

  D           NCUA Management Comments                            39
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


                            EXECUTIVE SUMMARY
The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted a Material Loss Review (MLR) of St. Paul Croatian Federal Credit Union
(St. Paul). We reviewed St. Paul to (1) determine the cause(s) of the credit union‟s
failure and the resulting loss to the National Credit Union Share Insurance Fund
(NCUSIF); and (2) assess NCUA‟s supervision of the credit union. To achieve these
objectives, we analyzed NCUA examination and supervision reports and related
correspondence; interviewed management and staff from NCUA Region III; and
reviewed NCUA guidance, policies and procedures, NCUA Call Reports, and NCUA
Financial Performance Reports (FPR).

We determined a suspected fraud was the direct cause of St. Paul‟s failure. As of
December 31, 2009, the credit union had approximately $238.8 million in total assets.
St. Paul had a substantial majority of its assets in loans that were supposedly
secured by members‟ shares. During the December 31, 2009, examination, NCUA
found the majority of the loans were not actually share secured and a number of them
were allegedly fraudulent. NCUA also found that St. Paul‟s chief executive officer
(CEO) manipulated loan records and masked the suspected loan fraud by constantly
refinancing certain loans or making advance payment on those loans. NCUA
projected an estimated loss of $170 million to NCUSIF.

We also determined that credit union management failed to meet their required
obligations to implement proper internal controls and oversight. Specifically,
management did not (1) ensure adequate internal controls were in place; (2) ensure
adequate policies were in place and adhered to; and (3) resolve prior examiner
findings in a timely fashion. For example, because the CEO handled most of the
accounting and lending processes, credit union staff lacked the fundamental
knowledge to run operations without the CEO‟s direction after NCUA placed the
credit union into conservatorship. In addition, during previous examinations, credit
union staff told NCUA examiners that the data processing system did not have the
capability to freeze the shares used to secure loans. However, we found that the
failure to freeze the shares was not due to system capability, but rather that the CEO
purportedly instructed the credit staff not to freeze the shares. Furthermore, the
annual Supervisory Committee audits, although in compliance with NCUA
regulations, were insufficient for a credit union of the size and complexity of St. Paul
because the external auditor‟s review process could not adequately address the
needs of the credit union. Although the CEO allegedly perpetrated the fraud, the
credit union Board of Directors and Supervisory Committee should have been more
involved to prevent such issues from occurring in the first instance.

We further determined NCUA examiners did not adequately evaluate the risks to St.
Paul operations. Specifically, examiners did not (1) thoroughly evaluate the credit
union‟s internal controls when assessing transaction risk; (2) ensure credit union
management took corrective action on repetitive Document of Resolution (DOR)
issues; and (3) expand examination procedures when red flags indicated higher risks



                                           1
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


to the credit union. We found that prior to the discovery of the alleged fraud, NCUA
examiners were aware of some internal control weaknesses yet failed to rate
transaction risk as high. For example, during one examination the examiner noted no
significant transaction risk concerns existed. However, the examiner reported a
$99,000 wire transfer and a $64,000 automated clearinghouse transaction were not
posted to the credit union books. In addition, examiners did not ensure St. Paul‟s
management took corrective actions on repetitive DOR items, which included: (1)
freezing shares used as collateral; (2) obtaining an annual audit that adhered to
generally accepted accounting principles and generally accepted auditing standards;
and (3) addressing liquidity and asset liability management issues. Additionally,
examiners did not test for hidden delinquency or expand examination procedures
when unusual financial performance ratios, abnormal real estate trends and
inappropriate member business loans existed. Furthermore, we found the examiners
noted multiple red flags during the examinations conducted at St. Paul, but did not
follow-up on the exceptions or deficiencies found.

Finally, we found that NCUA‟s Quality Control Program was not effectively present for
this credit union. Of the three Supervisory Examiner (SE) evaluations conducted,
none of them addressed any of the multiple red flags that the examiners noted during
the examinations or the need for stronger supervisory actions for repeated DORs.
Moreover, we believe the SEs should have questioned the continuous zero
delinquency and required the examiners to expand examination procedures and test
for zero delinquency. Additionally, we found NCUA Region III Division of Supervision
was not required to evaluate1 and review St. Paul‟s written examination reports and
did not select any of St. Paul‟s examinations for a random review.

In addition, we reviewed industry observations regarding occupational fraud. We
believe the industry‟s observations apply directly to issues we observed during our
review. We determined St. Paul‟s lax internal control environment created an
environment susceptible to fraud. Our comparative analysis can be found in Section
C of this report.

This report does not contain recommendations, but provides observations and
suggestions. However, the OIG plans to issue a Material Loss Review capping report
with recommendations based on issues raised in this report as well as the other nine
Material Loss Reviews conducted by the OIG. In addition, as resources allow, the
OIG may also conduct more in-depth reviews of specific aspects of the NCUA‟s
supervision program and make additional recommendations, as warranted.




1
  According to NCUA guidelines, Region III Division of Supervision was not required to perform a quality control
review on St. Paul‟s examinations because St. Paul was coded a CAMEL 2 and reported less than $250 million in
assets.



                                                       2
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Auditor observations made as a result of our review of St. Paul‟s failure include:

      Examiners did not consider the lack of adequate internal controls serious
       enough to rate transaction risk high at St. Paul even though this issue is an
       inherent problem in smaller credit unions. We believe the lack of internal
       controls and the repeatedly alleged data processing system issues indicated
       material weaknesses may have existed, warranting expanded examination
       procedures. Opportunities existed for management to reinforce the need for
       additional procedures.

      Examiners need to be reminded of the importance of understanding that DORs
       are to be developed to outline plans to reduce areas of unacceptable risk, with
       particular emphasis on the types of safety and soundness concerns that were
       clearly present in the years leading up to St. Paul‟s failure. Further, any
       reminder provided to examiners on the DOR process would be remiss if DOR
       follow-up in subsequent examinations were not also emphasized.

      A lack of emphasis on the importance of additional procedures, such as the
       Red Flag review, and expanding procedures when red flags are detected.
       Specific monitoring triggers could be developed to more easily „red flag‟ areas
       to be investigated, as well as provide a specific time allocation.

Finally, we found NCUA took or planned to take actions that would address changing
the effective dates of the examinations, testing for zero or abnormal delinquency, and
loan file reviews.

We appreciate the courtesies and cooperation NCUA management and staff provided
to us during this review.




                                           3
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


BACKGROUND

St. Paul Croatian Federal Credit Union

St. Paul Croatian Federal Credit Union (St. Paul) was located in Cleveland, Ohio. It
was chartered as a Federal Credit Union (FCU) in 1943 to serve members of St. Paul
Croatian Parish, spouses of persons who died while within the field of membership of
this credit union, employees of the credit union, persons retired as pensioners or
annuitants from the credit union, members of their immediate families, and
organizations of such persons. St. Paul had two branches, ten full-time employees,
seven Board members and three Supervisory Committee members. As of December
31, 2009, the credit union reportedly had approximately $238.8 million in total assets
and served 5,399 members. St. Paul was located in NCUA‟s Region III.

On April 23, 2010, NCUA placed St. Paul into conservatorship and subsequently, on
April 30, 2010, the NCUA Board placed St. Paul into involuntarily liquidation pursuant
to section 207(a)(1)(A) of the Federal Credit Union Act2 (FCU Act) and appointed
itself as liquidating agent. St. Paul‟s failure resulted in a loss to the NCUSIF of
approximately $170 million.

NCUA Examination Process

Total Analysis Process

NCUA uses a total analysis process that includes: collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and developing
action plans. The objectives of the total analysis process include evaluating CAMEL3
components, and reviewing qualitative and quantitative measures.

NCUA uses a CAMEL Rating System to provide an accurate and consistent
assessment of a credit union's financial condition and operations. The CAMEL rating
includes consideration of key ratios, supporting ratios, and trends. Generally, the
examiner uses the key ratios to evaluate and appraise the credit union‟s overall
financial condition. During an examination, examiners assign a CAMEL rating, which
completes the examination process.

Examiner judgment affects the overall analytical process. An examiner‟s review of
data includes structural analysis,4 trend analysis,5 reasonableness analysis,6 variable



2
  12 U.S.C. §1787(a)(1)(A).
3
  The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset/Liability Management.
4
  Structural analysis includes the review of the component parts of a financial statement in relation to the complete
financial statement.
5
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
6
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance ratios.



                                                         4
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


data analysis,7 and qualitative data analysis.8 Numerous ratios measuring a variety
of credit union functions provide the basis for analysis. Examiners must understand
these ratios both individually and as a group because some individual ratios may not
provide an accurate picture without a review of the related trends.

Financial indicators such as adverse trends, unusual growth patterns, or
concentration activities can serve as triggers of changing risk and possible causes for
future problems. NCUA also instructs examiners to look behind the numbers to
determine the significance of the supporting ratios and trends. Furthermore, NCUA
requires examiners to determine whether material negative trends exist; ascertain the
action needed to reverse unfavorable trends; and formulate, with credit union
management, recommendations and plans to ensure implementation of these
actions.

St. Paul received composite CAMEL code 1 rating in March 2004. From December
2004 through March 2009, the credit union received composite CAMEL code 2 rating.
(See Appendix A Table A-1 for St. Paul CAMEL ratings.)

Risk-Focused Examination Program

In May 2002, NCUA announced its new Risk-Focused Examination (RFE) Program,
for implementation in the fall of 2002. Risk-focused supervision procedures often
include both off-site and on-site work that includes reviewing off-site monitoring tools
and risk evaluation reports. The RFE process includes reviewing seven categories of
risk: Credit, Interest Rate, Liquidity, Transaction, Compliance, Strategic, and
Reputation. Examination planning tasks may include (a) reviewing the prior
examination report to identify the credit union‟s highest risk areas and areas that
require examiner follow-up; and (b) analyzing Call Report and FPR trends. The
extent of supervision plans depends largely on the severity and direction of the risks
detected in the credit union‟s operation and on management‟s demonstrated ability to
manage those risks. A credit union‟s risk profile may change between examinations.
Therefore, the supervision process encourages the examiner to identify those
changes in profile through:

        Review of Call Reports,

        Communication with credit union staff,

        Knowledge of current events affecting the credit union.



7
  Examiners can often analyze an examination area in many different ways. NCUA‟s total analysis process
enables examiners to look beyond the "static" balance sheet figures to assess the financial condition, quality of
service, and risk potential.
8
  Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the credit union's current condition, and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.



                                                         5
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


On November 20, 2008, the NCUA Board approved changes to the risk-based
examination scheduling policy, creating the 12-Month Program.9 NCUA indicated
these changes were necessary due to adverse economic conditions and distress in
the nation‟s entire financial structure, which placed credit unions at greater risk of
loss. The NCUA stated that the 12-Month Program will provide more timely relevant
qualitative and quantitative data to recognize any sudden turn in a credit union's
performance.

Objectives, Scope and Methodology

The FCU Act10 requires that the NCUA Office of Inspector General (OIG) conduct a
material loss review when the NCUSIF incurs a material loss with respect to an
insured credit union. The Act defines a material loss as (1) exceeding the sum of $10
million11 and (2) an amount equal to 10 percent of the credit union‟s total assets at
the time at which the Board initiated assistance or was appointed liquidating agent.
NCUA notified the OIG that the estimated loss reserve for St. Paul would exceed $10
million. Consequently, in accordance with the FCU Act and Chapter 3 of the NCUA
Special Assistance Manual, we initiated a material loss review (MLR).

The objectives of our review were to (1) determine the cause(s) of St. Paul‟s failure
and the resulting loss to the NCUSIF, and (2) assess NCUA‟s supervision of the
credit union. To accomplish our objectives we conducted fieldwork at NCUA‟s
headquarters in Alexandria, VA, at the regional office located in Atlanta, GA, and in
Cleveland, Ohio. Our review covered the period from December 2004 to April 2010,
St. Paul‟s liquidation date.

To determine the cause of St. Paul‟s failure and assess the adequacy of NCUA‟s
supervision we:

        Analyzed NCUA examination and supervision work papers, reports and related
         correspondence;

        Reviewed NCUA Regional and E&I staff summary reports;

        Interviewed NCUA staff; and

        Reviewed NCUA guidance, policies and procedures, Call Reports (5300
         Reports), and FPRs.

We used computer-processed data from NCUA‟s Automated Integrated Regulatory
Examination Software (AIRES) and Credit Union Online systems. We did not the test

9
  The 12-month program requires either an examination or a material on-site supervision contact within a 10 to 14
month timeframe based on risk-based scheduling eligibility.
10
   The FCU Act §216(j), 12 U.S.C. §1790d(j).
11
   On July 21, the President signed into law the Wall Street Reform and Consumer Protection Act of 2010, raising
the threshold for future material loss reviews to $25 million.



                                                        6
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


controls over these systems. However, we relied on our analysis of information from
management reports, correspondence files, and interviews to corroborate data
obtained from these systems to support our audit conclusions.

This report does not make recommendations but provides observations and
suggestions. However, the OIG plans to issue a Material Loss Review capping report
with recommendations based on issues raised in this report as well as the other nine
Material Loss Reviews conducted by the OIG. In addition, as resources allow, we
may also conduct more in-depth reviews of specific aspects of the NCUA‟s
supervision program and make recommendations, as warranted

We conducted this performance audit from April 2010 through October 2010 in
accordance with generally accepted government auditing standards and included
such tests of internal controls, as we considered necessary under the circumstances.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.
Management reviewed a discussion draft of this report and we incorporated their
suggested changes where appropriate.




                                           7
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


RESULTS IN DETAIL

We determined a suspected misappropriation of credit union funds through allegedly
fraudulent loans most likely caused the failure of St. Paul. We also determined that
St. Paul‟s management inactions facilitated the suspected fraudulent activity. In
addition, we determined that, had NCUA examiners performed additional procedures
when indicators of potential problems, such as examination red flags, were present,
NCUA might have mitigated or even prevented the loss to the NCUSIF.

A. Why St. Paul Croatian Federal Credit Union Failed

                              We determined a suspected fraudulent act committed
  Suspected Credit            by St. Paul‟s CEO, through allegedly fictitious loans,
  Union Loan and              caused the credit union to fail. Specifically, the CEO
  Share Fraud                 allegedly misappropriated funds by manipulating
                              records for loans reportedly issued by St. Paul and this
resulted in an estimated loss of $170 million to the NCUSIF.

In January 2010, representatives from the Federal Bureau of Investigation (FBI) and
the Internal Revenue Service (IRS) met with NCUA staff regarding NCUA‟s
examination program and process. The Federal representatives were concerned that
potential criminal activity was occurring at St. Paul. Consequently, NCUA started an
in-depth examination and hired an independent certified public accounting firm to
perform a fraud audit. NCUA staff and the firm both concluded there were large
concentrations of loans with insufficient collateral or collateral owned by unrelated
members.

St. Paul had a substantial majority of its assets in loans. In addition, all of St. Paul‟s
real estate loans were non-traditional five-year balloon loans. NCUA examiners
determined there was rapid loan growth that exceeded peer ratios12 and continued
even during the recent economic downturn. For example, the loans to asset ratio
increased from 95 percent to 98 percent from 2004 to 2009, while peer ratios
decreased from 65 percent to 64 percent. In addition, the majority of these loans
were designated as share secured.13 Specifically, 52 percent of all loans were share
secured in 2004, 70 percent in 2005, 66 percent in 2006, 76 percent in 2008, and 88
percent in 2009. Furthermore, many of the loans were supposedly secured by
shares of members not related to the loan recipient. However, NCUA staff
subsequently determined that the majority of the loans were not actually share
secured and a number of them were allegedly fraudulent.

During an interview conducted by NCUA staff, credit union employees alleged the
CEO maintained a list of loans that the CEO constantly refinanced. According to
credit union employees, during previous examinations when NCUA examiners

12
   Peer ratios are a benchmark against credit unions of similar asset size measuring a variety of credit union
functions and performance.
13
   Share secured loans required less documentation and had little or no loan underwriting.



                                                         8
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


requested loan files, the CEO stated the files were stored at the other branch and the
CEO would have them available the next morning. The credit union employees
alleged the CEO gathered the entire staff that evening and directed them to create
loan documentation to support the loans the examiners selected. Since a majority of
the loans was supposedly share secured, the CEO instructed the staff to find a
member with sufficient shares in their account to cover the pledged shares. This
account was listed on the share pledge security agreement for that borrower. Credit
union staff would then allegedly “witness” forged signatures on the share pledge
agreement. Furthermore, credit union staff members stated they would have
members with large share balances sign blank share pledge agreements in the event
credit union members needed a loan in a hurry.

According to NCUA staff, the CEO would then deliver the alleged fraudulent loan
documents to the examiners the following day. However, if a member had a real
estate loan or a car loan, those loan documents were more likely authentic. NCUA
staff also discovered the CEO allegedly maintained a list of loans from which he
would instruct credit union employees to either refinance the loan or advance
sufficient funds on the loan to make up to three monthly payments. The refinancing
and the loan advances with subsequent payments on the same loans masked any
loan delinquency. For example, NCUA AIRES loan download statistics showed a
large percentage of the loans reported as paid ahead or with accrued interest greater
than the payment, yet no loans were reported as delinquent.

                          We determined that credit union management, which
     Limited Oversight    includes the Board of Directors and Supervisory
     by Management        Committee, failed to meet their required obligations to
                          implement proper internal controls and oversight.
Specifically, management did not (1) ensure adequate internal controls were in
place; (2) ensure adequate policies were in place and adhered to; and (3) resolve
prior examiner findings in a timely fashion. As a result, the CEO was able to conduct
the suspected fraud for an undetermined amount of time.

According to NCUA guidance, supervisory committees are responsible for ensuring
that credit union Boards of Directors and management establish practices and
procedures that sufficiently safeguard member assets.14 In addition, the supervisory
committee must determine whether policies and control procedures are sufficient to
safeguard against error, conflict of interest, self-dealing, and fraud.15 Furthermore,
federally insured credit unions are required to obtain a supervisory committee audit at
least once every calendar year.16 If an audit is performed or contracted out, a review
of the structure of the credit union‟s internal controls and accuracy of the credit
union‟s record must be performed.17



14
   NCUA Rules and Regulations Section 715.3(a)(2).
15
   NCUA Rules and Regulations Section 715.3(b)(4).
16
   NCUA Rules and Regulations Section 715.4, 715.5, 715.7.
17
   Supervisory Committee Guide 4.03.



                                                     9
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Lack of Segregation of Duties

According to NCUA management, the CEO handled most of the accounting and
lending processes and the credit union staff was only allowed to take specific
instructions from the CEO. For example, the CEO prepared and certified 2009 year-
end call report and the staff was instructed to perform certain functions, some of
which were possibly illegal. In addition, credit union staff lacked the fundamental
knowledge to run operations without the CEO‟s direction after NCUA placed the
credit union into conservatorship. Consequently, there were no institutional
constraints on the CEO to prevent him from committing the suspected loan fraud.

Information System Issues

Several information system issues existed at St Paul. For example, during previous
examinations, credit union staff told NCUA examiners that the data processing (DP)
system could not freeze the shares used to secure loans. As a result, during the
December 31, 2007, examination, and repeated in the December 31, 2008,
examination and the March 31, 2009, supervision contact, the examiner identified as
a Document of Resolution (DOR) item the need for the manager to contact the
software provider regarding the inability to freeze shares. However, during the
December 31, 2009, examination examiners determined the shares could be frozen
and the CEO purportedly instructed the staff not to freeze the shares.

Additionally issues include the DP system truncating large numbers, for instance
$1.8 million appeared as $.8 million. This occurred when printing loan documents
with a large amount. In addition, the DP system did not generate reports that
ensured Bank Secrecy Act (BSA)18 compliance. For example, the system did not
differentiate cash transactions from check transactions. If a member conducted a
transaction with both cash and checks, the transaction was designated as a mixed
deposit on the activity monitoring report, which did not allow for adequate suspicious
activity monitoring. Unless the transactions were completely conducted in cash, it
would have been necessary to review each deposit ticket to determine the actual
nature of the mixed deposit and whether a suspicious activity report was necessary.

Supervisory Committee Audits Not Sufficient

NCUA examiners determined the annual Supervisory Committee audits, though in
compliance with NCUA regulations were not sufficient for a credit union of this size.
The credit union engaged an external auditor to complete the Supervisory
Committee annual audit. However, given the size and complexity of St. Paul, the
auditor‟s review process was not sufficient to address the needs of the credit union.
For example, while the liquidity issues had been a concern for many years, the


18
    BSA requires United States financial institutions to keep records of cash purchases of negotiable instruments,
file reports of cash transactions exceeding $10,000 (daily aggregate amount), and to report suspicious activity that
might signify money laundering, tax evasion, or other criminal activities.



                                                        10
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


auditor only noted the liquidity ratios and did not provided input regarding
performance concerns. We found the following concerns:

         The 2006 and 2007 Supervisory Committee reviews were completed on work
          papers from an obsolete NCUA Supervisory Committee Guide;

         The reviews focused only on verifying balance sheet accounts and did not
          include income statement testing or alternate delinquency testing;

         There are no tests of internal controls noted in the audit reports;

         The loan review work papers were full of white out and cross out corrections,
          and it was difficult to determine what the corrections signified;

         It was highly irregular that audit work papers contained white outs; and

         Since the modifications were not initialed, it was impossible to determine who
          made the corrections.

NCUA determined, and we agree, the reviews seem more appropriate for a $10
million credit union than for a $240 million credit union.

BSA/OFAC Controls Did Not Ensure Compliance

Following the discovery of the alleged fraud, NCUA staff subsequently concluded that
St. Paul had not exercised due diligence in complying with BSA and Office of Foreign
Assets Control19 (OFAC) requirements. NCUA examiners discovered that the credit
union‟s BSA records were insufficient to ensure compliance. As stated earlier, there
was no system in place to separate mixed check and cash deposits. Examiners also
determined St. Paul‟s Board did not complete the required BSA training. In addition,
examiners found the following deficiencies: OFAC lists of suspicious persons were
not verified against the recipients of out-going wire transfers; the wire transfer log was
manually kept; documentation for wire transfers was inadequate; and St. Paul staff
did not update the OFAC list on a regular basis.

Loan and Policies/Practices Were Minimal

 Although most loans were supposedly share secured, financial performance report
data from December 2004 through December 2009 showed St. Paul had unsecured
loans. However, no unsecured loan or member business loan (MBL) policies existed.
During the December 31, 2009, examination, examiners discovered that many of the
loans reported as share secured were in fact not share secured and included MBLs.

19
   Under OFAC regulations, credit unions must block or freeze the assets, funds transfers, and all transactions of
all designated countries and their agents, specially designated terrorists, foreign terrorist organizations, specially
designated narcotics traffickers and blocked persons. In addition, OFAC may require the credit union to reject or
return incoming transfers from prohibited sources.



                                                          11
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Furthermore, real estate loan policies were scant. For NCUA examinations
conducted from 2004 through 2009, the real estate loan exceptions work papers
showed loan appraisal issues and high loan to values (over 94 percent). Specifically,
examiners noted during the December 31, 2004, examination that very few loans had
income verifications in the loan files; moreover, during the December 31, 2009,
examination, examiners noted income verification was not required on any loan.
These were strong indications of poor management oversight. Furthermore, during
the December 31, 2009, examination, examiners found loan documentation
contained unapproved corrections marked on the documents, and tax assessment
values were used instead of real estate appraisals. Although the CEO allegedly
perpetrated the fraud, the credit union board and Supervisory Committee needed to
be more involved to prevent such issues from occurring.

B. NCUA Supervision of St. Paul Croatian Federal Credit Union

                                We determined NCUA examiners did not adequately
     Credit Union Risks Not
                                evaluate the risks to St. Paul operations. Specifically,
     Adequately Evaluated
                                examiners did not (1) thoroughly evaluate the credit
                                union‟s internal controls when assessing transaction
risk; (2) ensure credit union management took corrective action on repetitive DOR
issues; and (3) expand examination procedures when red flags indicated higher risks
to the credit union. As a result, NCUA missed opportunities to mitigate the loss to the
NCUSIF caused by St. Paul‟s failure.

NCUA‟s risk focused examination process should determine the adequacy of internal
controls and the degree of reliance on the work efforts completed by competent,
professional individuals and documented in reports and audits.20 For example,
evaluating internal controls involves:

              Identifying the internal control objectives relevant to the credit union;

              Reviewing pertinent policies, procedures, and documentation;

              Discussing controls with appropriate levels of personnel;

              Observing the control environment;

              Testing transactions as indicated by the level of risk;

              Sharing findings, concerns, and recommendations with the board of
               directors and senior management; and

              Determining that the credit union has promptly corrected noted
               deficiencies.21
20
     NCUA Examiner‟s Guide, Chapter 1.
21
     NCUA Examiner‟s Guide, Chapter 4.



                                                12
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


In addition, NCUA guidance indicates examiners should base the scope, type, and
depth of an internal control review on the credit union‟s size, complexity, scope of
activities, and risk profile. An assessment of the credit union‟s audit function plays an
important part in this determination. When management or examiners note internal
control weaknesses, the credit union should take immediate action to correct the
deficiencies.

Furthermore, according to NCUA guidance, internal control is the process, developed
by a credit union's board of directors, management, and other personnel, designed to
provide reasonable assurance in the effectiveness and efficiency of its operations,
the reliability of its financial reporting, and the credit union‟s compliance with
applicable laws and regulations. NCUA internal control examination objectives help
to:

        Determine whether the credit union has implemented efficient and effective
         operations and risk management systems;

        Determine whether the credit union accurately records transactions;

        Determine timeliness and reliability of financial reporting;

        Determine whether the credit union complies with regulations, internal policies,
         and internal procedures; and

        Assess whether the credit union has implemented adequate internal controls
         to safeguard assets.22

In our opinion, NCUA did not adequately achieve any of these objectives. Although
the examiners, Supervisory Committee and external auditor may have performed
their required minimum procedures, none of them properly assessed the adequacy of
the credit union‟s internal control structure nor tested its operational effectiveness.
We reviewed NCUA examinations23 conducted prior to the discovery of the alleged
fraud and determined NCUA examiners were aware of some of the internal control
weaknesses. For example, when the examiners arrived to conduct the examinations,
the CEO stated the loan files were stored at the other branch and would make them
available the following morning. In addition, while the credit union staff repeatedly
claimed the data processing system did not allow pledged shares to be frozen, NCUA
examiners failed to elevate the repeated DOR items for stronger supervisory action.

We found NCUA examiners did not determine that internal controls were weak until
the discovery of the alleged fraud. We believe the examiners did not adequately

22
  NCUA Examiner‟s Guide, Chapter 4.
23
  We reviewed NCUA examinations and supervision contacts from December 31, 2004 through December 31,
2008, and the pre-scheduled the December 31, 2009, examination that was conducted after NCUA met
representatives from two Federal agencies. However, NCUA significantly expanded the number of hours for the
December 2009 examination after the meeting.



                                                    13
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


assess the risks to St Paul during the examinations and contacts conducted prior to
the alleged fraud discovery. Specifically, NCUA examiners did not rate transaction
risk high until after the suspected fraud was uncovered. Appendix B contains the
nine factors comprising the transaction risk indicators.

Transaction Risk Not Rated High

Examiners did not consider the following issues serious enough to rate transaction
risk high at St. Paul:

      Weak internal controls;

      Serious weaknesses in audit coverage;

      Significant weaknesses in transaction and information processing activities;
       and

      Failure of management to make required corrections to improve transaction-
       processing risk controls.

 Specifically, we found:

      During the December 31, 2004, examination, the examiner noted no significant
       transaction risk concerns existed. However, the examiner reported that a
       $99,000 wire transfer and a $64,000 automated clearinghouse transaction
       were not posted to the credit union books.

      The examiner rated transaction risk low during the December 31, 2005,
       examination because the review of major general ledger accounts showed
       amounts traced back to supporting documentation, employees had a tradition
       of long-term tenure, the annual audit was performed by an outside vendor, and
       membership was limited to the church parishioners. Furthermore, the
       examiner did not note any concerns or problems with the Supervisory
       Committee audit. Nevertheless, the examiner found all documentation for the
       last call report supported the report except for nonmember deposits.

      During the June 30, 2007, supervision contact, the examiner noted for the first
       time that St. Paul had outgrown its current audit provider. A DOR item from
       the December 31, 2007, examination stated the audit should conform to
       generally accepted accounting principles (GAAP) and generally accepted
       auditing standards (GAAS). In addition, the examiner noted a review of the
       hardware and software operations showed there were several areas for
       improvement. Yet, the examiner only rated transaction risk as moderate.

      The examiner noted during the December 31, 2008, examination that
       oversight of the financial condition and internal controls were still being viewed



                                           14
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


      from the perspective of a small credit union. The examiner also noted that, as
      a result, adjustments made to the year-end call report were indicative of the
      need for a more detailed analysis. Although the examiner further noted
      instances were created where reporting under GAAP was questionable, the
      examiner only rated transaction risk as moderate.

We also found that the examiners noted on the Supervisory Committee Audit and
Verification Review checklists, from December 31, 2004 through December 31, 2009,
that there were no reportable conditions or material weaknesses found during review
of the credit union‟s audit reports. However, we believe that the lack of segregation
of duties and lack of internal controls over share secured loans were material
weaknesses. Additionally, we found no evidence that the examiner reviewed whether
anyone performed any internal control reviews. Furthermore, the examiners stated
that, for most examinations there were no Supervisory Committee minutes.
Consequently, NCUA examiners did not perform additional, or expanded examination
procedures.

(See Appendix A, Table A-2 for risk ratings)

Examiners Did Not Elevate Repeated DOR Issues for Stronger Supervisory
Actions

Examiners did not ensure St. Paul‟s management took corrective actions on
repetitive issues detailed in DOR items to prevent them from becoming problems.
This included freezing shares used as collateral, obtaining an annual audit that
adhered to GAAP and GAAS, and addressing liquidity and asset liability management
issues. We believe the delay in issuing a DOR, the multiple instances of repeat
DORs and the failure to take more stringent supervisory actions resulted in missed
opportunities to uncover the suspected loan fraud.

The credit union allegedly did not have a system in place to ensure shares used to
secure loans were frozen, thereby preventing the same shares from being used to
secure other loans or being withdrawn. We found during the December 31, 2007,
examination, a DOR item required the credit union‟s manager to contact the software
provider to determine the procedure necessary to show that funds were frozen as
collateral on loans and to ensure that they were not accidently used twice. The
examiners repeated this as a DOR item for the December 31, 2008, examination and
the March 31, 2009, supervision contact, yet it was never resolved. In addition, we
found examiners were aware of the issue as far back as the December 31, 2002,
examination. In a summary report, NCUA staff determined that during the December
31, 2002, examination, the examiner noted St. Paul‟s management was in the
process of ensuring that shares securing loans were properly identified in the data
processing system to prevent withdrawals. However, there was no formal
requirement in the examiner findings or a DOR to correct the issue until 2007.
NCUA staff also determined that during the December 31, 2004, examination a team
member reviewing loans issued a memo to the examiner in charge stating St. Paul



                                          15
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


management needed to devise a method to track accounts or certificates securing
loans to ensure the same account does not secure more loans than funds existing in
the deposit account. In addition, the examiner noted that one loan had insufficient
shares as collateral and that the same share certificates backed two loans, but were
insufficient to cover both loans.

We also found that during the June 30, 2007, supervision contact, the examiner
determined St. Paul had outgrown its audit provider and needed to consider obtaining
an annual opinion audit.24 Furthermore, during the December 31, 2007, examination,
the examiner recommended that the credit union obtain a CPA25 audit performed by a
firm with an in-depth understanding of credit union operations and knowledgeable of
GAAP and GAAS. The examiners listed this as a repeat DOR item on the next and
final two examinations. For instance, during the December 31, 2008, examination,
examiners noted the auditor only documented the general ledger and balancing of
accounts, and that management needed to engage the auditor to perform the next
audit in conformance with GAAP and GAAS requirements.

We further found, for six of the eight examinations and supervision contacts26
conducted prior to the December 31, 2009, examination, the examiners issued
repeated DORs for liquidity risks. Specifically, for five of the six contacts, NCUA
examiners recommended St. Paul revise its funds management/liquidity policy for
ratio limits. During the June 30, 2007,27 contact, the examiner stated St. Paul needed
to increase liquidity to five percent of assets. In addition, one of the DOR items from
the March 31, 2009, contact directed the credit union to establish a line of credit with
another source other than the corporate credit union. Furthermore, for four of the
eight examinations and supervision contacts,28 the examiner issued repeated DORs
for St. Paul to (1) develop an asset liability management policy addressing interest
rate risk; (2) establish cash flow risk limits; and (3) develop internal controls and
reporting requirements.

We found the examiners did not elevate any of these issues to the Supervisory
Examiner for stronger supervisory actions such as a Regional Director‟s Letter, or a
Letter of Understanding and Agreement. As a result, NCUA missed opportunities to
mitigate the loss to the NCUSIF caused by St. Paul‟s failure.

(See Appendix C for DORs)




24
   An opinion audit expresses an opinion on the fair presentation of the financial statements in all material
respects in accordance with generally accepted accounting principles.
25
   Certified Public Accountant.
26
   The six examination and supervision contact dates were December 31, 2004, December 31, 2005, June 30,
2007, December 31, 2007, December 31, 2008, and Mar 31, 2009.
27
   The five of six examination and supervision contact dates were December 31, 2005, June 30, 2007, December
31, 2007, December 31, 2008, and Mar 31, 2009.
28
   The four of eight examination and supervision contact dates were December 31, 2004, December 31, 2007,
December 31, 2008, and March 31, 2009.



                                                     16
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Examination Procedures Not Expanded When Red Flags Present

We found loans amounted to well over ninety percent of St. Paul‟s assets and the
examiners rated credit risk low prior to the December 31, 2009, examination primarily
based upon the assumption that the majority of loans were share secured and the
credit union was reporting zero delinquency. In fact, the credit union reported zero
delinquency and charge-offs from, at least, 2004 through 2009. Examiners believed
this was reasonable, stating that faith-based credit unions such as St. Paul usually
have low delinquency. It was not until the December 31, 2009, examination that the
examiners rated credit risk high. The examiners determined that many of the loans
were in fact not share secured, loan documentation contained many unauthorized
corrections, and data processing controls were weak.

We also found examiners did not perform sufficient testing and analysis when risks
were readily apparent. Specifically, the examiners did not test for hidden delinquency
or expand examination procedures when unusual financial performance ratios,
abnormal real estate trends, and inappropriate member business loans existed. We
found that the examiners noted multiple red flags during the examinations conducted
at St. Paul, but did not follow-up on the exceptions or deficiencies found. In addition,
NCUA guidance29 indicates examiners should be aware of any red flags, which may
indicate that the examiner needs to expand analysis and review of the applicable
operations. We found the following red flags existed at St. Paul:

Delinquency/Loan File Red Flags

In spite of the economic downturn and contrary to other credit unions, St. Paul
reported zero loan delinquency and charge-offs from 2004 through 2009. We
determined that the delinquency/loan file red flags the examiners found, but for which
they did not expand examination procedures, listed by examination, included:

          December 31, 2004

               o Eight of twenty-three paid-ahead loans reviewed were technically
                 delinquent since monthly loan payments were not made;

               o Very few loans had income verifications in the loan file;

               o Numerous credit reports had scores in the 400 to 600 range; and

               o Two loans had old credit reports, one loan showed several accounts in
                 collection, and two contained credit reports obtained after the loan was
                 approved, of which one also showed several accounts in collection.




29
     NCUA Examiner‟s Guide, chapter 7.



                                              17
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


      December 31, 2007

          o Minor exceptions existed mostly for high risk loans with no explanation
            on poor credit reports;

          o Three loans with balances between $416,000 and $658,000 appeared
            to be delinquent. Specifically, one showed no payment on the principal,
            one had accrued interest of four months and the third had five months
            of accrued interest;

          o Four loan files had credit quality issues such as a credit report showing
            delinquent loans and the loan amount greater than the secured
            collateral; and

          o Three real estate loans were listed as loan exceptions.

      December 31, 2008

          o Four loan security agreements were corrected without member
            approval;

          o Three loans files showed bad credit history. Two members had
            bankruptcies and one member had a past due real estate loan;

          o One loan document disclosed the wrong payment;

          o One car loan security agreement did not list the vehicle identification
            number ; and

          o A large number of share loans were secured by shares from accounts
            other than the loan recipient.

The delinquency/loan file red flags the examiners found, during the December 31,
2009, examination and after the allegation of suspected criminal activity included:

          o Loans encoded as share secured did not always contain the required
            share collateral documentation in the loan file;

          o Actual share secured loans largely secured by individuals not party to
            the loan;

          o Share pledge agreements were not always signed;

          o Loan files did not always contain an assignment of shares;




                                          18
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


          o Data processing system did not have sufficient record length to support
            size of large loans;

          o Correction fluid commonly used on loan documents without
            authorization;

          o No income verification required on any loan; and

          o Fifty-four consumer loan exceptions consisted of mostly share secured
            documentation issues

Financial Performance Red Flags

Although the nation‟s economy took a downturn in 2007, St. Paul‟s financial
performance appeared to be excellent. For example, St. Paul‟s return on assets
(ROA) was over two percent, while peer ratio ROA steadily dropped and loan growth
was always above the peer ratio. In addition, member loan yields were higher than
peer credit unions, and loan delinquency and charge-offs both were reported as zero.
We found examiners did not expand procedures or test for hidden delinquency even
though there were inherent risks with a reported zero delinquency. Moreover, we
found no evidence that examiners performed more than minimal procedures when
assessing St. Paul‟s financial performance. See the below chart for St. Paul alleged
financial performance versus peer credit unions‟ performance.


                        St. Paul Financial Performance Ratios
 Ratio                    2004       2005       2006       2007      2008    2009
 ROA                       2.26       2.55      2.30       2.21       2.28    2.38
 Peer                       0.9        0.8      0.77       0.64       0.29    0.01
 Loan Growth              42.51     22.29      13.99       6.28      14.75   21.98
 Peer                     10.56     10.54       7.45       5.36       6.88    4.41
 Loan Yield                7.46       7.51      7.46       7.46       7.47    7.47
 Peer                      6.37       6.28      6.64         6.9      6.77     6.5
 Loan Delinquency             0          0          0            0      0        0
 Peer                      0.77        0.8      0.75       1.01       1.39    1.71
 Charge Offs                  0          0          0            0      0        0
 Peer                      0.54       0.54      0.46       0.49       0.72    0.98




                                          19
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Real Estate Loan Red Flags

The real estate market was the primary driver in the 2007 economic downturn. St.
Paul‟s total real estate portfolio was relatively constant, averaging approximately $34
million from 2004 to 2006. While this amount dropped in 2007 to $22 million,
primarily due to a participation loan agreement with another credit union, real estate
loans increased to $42 million in 2008 and to $63 million in 2009. This occurred even
as the economic downturn affected most of the county. In addition, all of these loans
were non-traditional five-year balloon notes with payments amortized over 30 years.
We found the examiners did not expand procedures even though there were inherent
risks with these types of real estate loans. We determined that during reviews of real
estate loan files, the examiners found multiple loan exceptions that were red flags
and should have led to expanded examination procedures. Those red flags, listed by
examination, included:

      December 31, 2004

          o One real estate loan file contained an appraisal for a previous loan, for
            which the purchase price was greater than appraisal. The file also
            contained a credit report that was over one year old;

          o Another loan file contained a credit report, which showed the borrower
            had several accounts in collection and a low credit score. In addition,
            there was no final insurance policy. Also, the examiner noted that it
            may have been a business loan since the purchase agreement included
            items needed to operate a pizza parlor;

          o One real estate loan was due to be refinanced; and

          o One loan file contained a credit report dated after loan date and the
            credit report showed several collection accounts.

      December 31, 2007

          o One loan was for an amount greater than the collateral used and the
            hazard insurance was less than the loan amount;

          o One loan file contained a year old credit report; and

          o One loan file did not have the final title commitment or the recorded
            mortgage.

      December 31, 2008

          o All four of the real estate loans reviewed by examiners contained loan
            exceptions;



                                          20
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


             o One loan had a loan to value of 94 percent, which was greater than St.
               Paul‟s policy of 80 percent;

             o Another loan file did not contain an updated mortgage lien. The loan
               had been refinanced, but the enclosed lien was for a loan due October
               2003;

             o One loan file contained a credit report that was obtained after the note
               was signed, the loan to value was 95 percent and the mortgage had not
               been filed; and

             o For one loan, the property evaluation was based on the tax assessment
               instead of a real estate appraisal and the mortgage had not been filed.

During the December 31, 2009, examination, examiners determined policies were
inadequate to control risk, specifically for geographic area of operation and appraisal
requirement.

Member Business Loans Red Flags

Member business loans (MBL) were present, but were not viewed as MBLs. The
examiners apparently took at face value that these loans were share secured and
therefore not MBLs. We found no evidence of any additional procedures performed
by examiners even though the following red flags were present. For example:

        During the December 31, 2004, examination the examiner stated “there were
         two loans that might have been business loans”;

        The examiner noted for the December 31, 2007, examination that a large
         number of share secured loans were for large dollar amounts and It appeared
         that this was a way for the credit union to make business loans without a lot of
         documentation;

        For the December 31, 2008, examination, the examiner noted there was
         evidence of MBLs, but all the loans were apparently share secured and
         therefore, not subject to NCUA MBL Rules and Regulations;

        Examiners did not take exception to many issues until after the FBI and IRS
         met with NCUA staff in January 2010. For example, during the December 31,
         2009,30 examination the examiners found:

             o St. Paul had an MBL portfolio of 133 loans valued at $68.6 million with
               $2.4 million originated prior to 2008, $18.6 million in 2008, $41.8 million
               in 2009, and the remainder during 2010;
30
  December 31, 2009, is the effective date of the examination. The examiners conducted this examination from
February to April 2010.



                                                     21
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16



               o Evidence that some of the MBLs had been on the credit union‟s books
                 for years;

               o Several loans classified as share secured loans were actually MBLs;

               o The credit union did not have an MBL policy;

               o The data processing system did not track MBLs; and

               o Business loans were not supported by adequate documentation such
                 as corporate designation of authority to borrow.

In addition, we found strategic, transaction and compliance risks existed prior to the
discovery of the alleged fraud. However, examiners did not view the risks as safety
and soundness concerns until the December 31, 2009, examination. Specifically the
red flags were:

Transaction Risk Red Flags

NCUA defines transaction risk as the risk to earnings or capital arising from fraud or
error that results in an inability to deliver products or services, maintain a competitive
position, and manage information.31 Prior to the December 31, 2009, examination, in
addition to the freezing of the share issues, examiners also voiced concerns that the
annual audit was not sufficient for the size and complexity of this credit union.
However, neither issue was ever resolved. Subsequently, examiners found the data
processing system truncated numbers on loan documents and loan documentation
was very poor. During the December 31, 2009, examination, NCUA staff found a
lack of segregation of duties with the CEO handling most functions and the staff
apparently unable to perform anything but the most basic tasks. Examiners also
noted several areas as having transaction risk issues. For example, DOR items
included training the staff on document preparation, ensuring monitoring reports
contain sufficient information, and taking action to correct or place sufficient internal
controls on loan advances.

We determined that member account confirmations did not include a verification of
pledged shares. We also determined that although it is not required, it would have
seemed prudent to verify pledged shares, considering other controls were absent on
these shares. We further determined there was little evidence that examiners
focused much attention on the above internal control concerns, since we saw no
evidence that they performed any additional substantive examination procedures.




31
     NCUA Examiner‟s Guide, chapter 1.



                                             22
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Strategic Risk Red Flags

According to NCUA guidance, strategic risk is the current and prospective risk to
earnings or capital arising from adverse business decisions, improper implementation
of decisions, or lack of responsiveness to industry changes.32 We found that
although St. Paul continued to have severe liquidity issues from at least 2004 through
2009, the examiners did not take stronger enforcement actions. In addition, the credit
union did not have adequate policies, procedures and internal controls. Furthermore,
one of the most critical internal controls was the credit union‟s continued lack of
resolution on the freezing of pledged shares. NCUA examiners noted, as far back as
the December 31, 2002, examination, that the credit union was in the process of
ensuring shares securing loans were properly identified in the data processing
system to prevent withdrawals. However, the examiners did not make this a DOR
item until the December 31, 2007, examination. While this was a repeated DOR item
in subsequent examinations, NCUA examiners neither performed additional
procedures nor held St. Paul‟s management accountable by taking stronger
enforcement actions. During the December 31, 2009, examination, examiners found
there were a lack of segregation of duties, lending policies, and internal controls, and
subsequently rated strategic risk as high. However, prior to this examination,
strategic risk was only rated moderate; consequently, examiners did not perform any
additional procedures.

Compliance Risk Red Flags

Compliance Risk is the current and prospective risk to earnings or capital arising from
violations of, or nonconformance with, laws, rules, regulations, prescribed practices,
internal policies and procedures, or ethical standards.33 During the December 31,
2009, examination, examiners determined that St. Paul‟s data processing system
reports were not sufficient to ensure compliance with BSA. Specifically, system
reports did not separate checks and cash when both cash and checks were
deposited at the same time. Although the examiner had previously noted this issue,
the credit union never corrected the problem. In addition, the examiner noted
significant BSA violations during the December 31, 2005, examination, which
according to the examiner all but one of the seven violations were resolved by
September 30, 2006. Furthermore, the wire transfer log was a manual system and
was not sufficient for OFAC and BSA purposes. In addition, non-members partied to
wire transfers were not matched against the OFAC listing. Although examiners
discovered these issues prior to the December 31, 2009, examination, the issues
were never corrected.

See Appendix A, Table A-2 for risk ratings




32
     NCUA Examiner‟s Guide, chapter 1.
33
     NCUA Examiner‟s Guide, chapter 1.



                                          23
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


NCUA’s Quality Control Review Was Ineffective

An objective of NCUA‟s examination evaluation and review process is to measure the
quality and effectiveness of its examination and supervision program by assessing
the quality of examiner problem identification, recommendations for resolution and
risk mitigation, and effectiveness of communication with officials. To help ensure
quality control, NCUA evaluates and reviews examination reports through
Supervisory Examiner (SE) and Division of Supervision (DOS) reviews. SEs
evaluate all of the examiners' work as part of the examiner‟s development and overall
appraisal; and DOS analysts perform a quality control function, and as such, limit
their review to the written reports. According to NCUA guidance, the quality of the
examination report can cause a risk to the NCUSIF.

SEs must select at least five reports each year from each examiner for formal
evaluation. These evaluations should determine the following:

      Examiners receive consistent, prompt feedback regarding the quality of their
       work, including the strengths, weaknesses, and suggestions for improving
       performance;

      Examiners prepare an appropriate and effective scope and report that
       adequately addresses risk, identifies problems, and makes sound
       recommendations to resolve major problems within acceptable time frames;

      Examiners have written a report that stands alone and documents a complete
       administrative record of the examination contact; and

      Examiners minimize NCUSIF losses through adequate identification and
       resolution of problems.

DOS analysts review all reports meeting the following criteria:

      All credit unions coded CAMEL 4 or 5 with assets greater than $100,000;

      All credit unions coded CAMEL 3 with assets greater than $50 million;

      All credit unions coded CAMEL 3 for longer than 36 months and with assets
       greater than $5 million;

      All credit unions with assets greater than $250 million; and

      A selected sample of examinations and supervision contacts determined by
       the regional director.

DOS analysts review reports to identify existing or emerging trends, common or
frequently occurring findings, and systemic risk factors. DOS analysts can further



                                          24
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


observe trends within the credit unions and in the examination process. DOS reviews
focus on quality control and should address whether the report:

        Addresses risk through an appropriate and effective scope;

        Focuses on results and includes plans for correcting problems promptly;

        Addresses negative trends and includes sound recommendations to resolve
         major problems within acceptable time frames;

        Complies with uniform examination, insurance review, and supervision
         standards;

        Presents a stand-alone document of the examination contact; and

        Provides a complete administrative record of the examination contact.

The SEs and DOS analysts will conduct the evaluation and review processes
independently. Both SEs and DOS analysts will complete and disseminate their
evaluations and reviews within 30 days of the report upload. Regional policy
determines whether the region will release DOS Reviews to examiners. Each region
will develop its own policy to identify and resolve material differences between DOS
Reviews and SE Evaluations.34 According to NCUA Region III current guidelines, the
DOS forwards the quality control report to the SE and the SE then forwards it to the
examiner.35

We believe NCUA‟s Quality Control Program was not effectively present for this credit
union. Specifically, we found that through 2009, NCUA SEs conducted three
evaluations36 of St. Paul examinations. However, none of the evaluations addressed
any of the multiple red flags that the examiners noted during the examinations.
Moreover, for each evaluation, the SEs agreed with the examiner‟s risk assessments
and/or assigned the CAMEL ratings. We believe the SEs should have questioned the
continuous zero delinquency and required the examiners to expand examination
procedures and test for zero delinquency. Furthermore, the SEs did not address the
need for stronger supervisory actions for repeated DORs such as freezing the shares
used as collateral or having an annual audit that conformed to GAAP and GAAS.

According to NCUA guidelines, Region III DOS was not required to perform a quality
control review on St. Paul‟s examinations. From December 2004 through March
2009 because St. Paul was coded a CAMEL 2 and reported less than $250 million in
assets, Region III DOS was not required to evaluate and review St. Paul‟s written
examination reports. We found that Region III DOS did not select any of St. Paul‟s
examinations for a random review.

34
   NCUA Examiner‟s Guide, chapter 22.
35
   NCUA Region III Guide, section IX.
36
   The evaluations covered the December 31, 2005, December 31, 2007 and December 31, 2008 examinations.



                                                   25
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


C. Observations

We reviewed industry observations regarding occupational fraud.37 We believe the
industry‟s observations apply to issues we observed during our review of St. Paul‟s
failure. For example, the Association of Certified Fraud Examiners (ACFE) reported
in their 2008 report to the nation38 that the implementation of anti-fraud controls has a
measurable impact on an organization‟s exposure to fraud. ACFE examined 15
specific anti-fraud controls and measured the median loss in fraud cases depending
on whether organizations did or did not have a given control in place at the time of
the fraud. In every comparison, the ACFE found significantly lower losses when
controls had been implemented. We determined St. Paul‟s lax internal control
environment created an environment susceptible to fraud.

The following table lists other industry observations regarding fraud and how they
compare to our observations about St. Paul‟s failure:

       Industry Observations                           NCUA OIG Observations of
        of Fraudulent Activity                            St. Paul’s Failure
      Lack of adequate internal Lack of segregation of duties.
      controls is the most      Data Processing system control issues.
      common factor that
      allows fraud to occur.

      Small businesses have                Lack of segregation of duties due to low number
      been determined to be                of employees (ten employees for two offices).
      most susceptible to                  One person handled most of the accounting and
      occupational fraud.                  lending processes.

      Lack of management                   Supervisory Committee not fully active.
      review allows fraud to
      occur.                               Repeated DOR items not addressed.


Although we determined that more diligent and aggressive supervision on the part of
NCUA may have mitigated the loss, we believe the cause of St. Paul‟s failure was
directly attributable to the suspected fraud committed against its members through
the actions of one individual.




37
   The Association of Certified Fraud Examiners defines occupational fraud as “the use of one‟s occupation for
personal enrichment through the deliberate misuse or misapplication of the employing organization‟s resources or
assets.”
38
   Association of Certified Fraud Examiners, 2008 Report to the Nation on Occupational Fraud and Abuse.



                                                      26
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Auditor observations made as a result of our review of St. Paul‟s failure include:

      Examiners did not consider the lack of adequate internal controls serious
       enough to rate transaction risk high at St. Paul even though this issue is an
       inherent problem in smaller credit unions. We believe the lack of internal
       controls and the repeatedly alleged data processing system issues indicated
       material weaknesses may have existed, warranting expanded examination
       procedures. Opportunities existed for management to reinforce the need for
       additional procedures.

      Examiners need to be reminded of the importance of understanding that DORs
       are to be developed to outline plans to reduce areas of unacceptable risk, with
       particular emphasis on the types of safety and soundness concerns that were
       clearly present in the years leading up to St. Paul‟s failure. Further, any
       reminder provided to examiners on the DOR process would be remiss if DOR
       follow-up in subsequent examinations were not also emphasized.

      A lack of emphasis on the importance of additional procedures, such as the
       Red Flag review, and expanding procedures when red flags are detected.
       Specific monitoring triggers could be developed to more easily „red flag‟ areas
       to be investigated, as well as provide a specific time allocation.




                                          27
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


           Appendix A: Examination and Supervision History

The following provides a summary of NCUA‟s supervision of St. Paul, which includes
examinations, and on-site and off-site supervision contacts from December 2004
through the December 2009 examination during which NCUA placed St. Paul under
conservatorship.

Table A-1
                       St. Paul Assets and CAMEL Ratings – 2004 to 2009

 Examination
  or Contact     Assets39     Composite    C       A       M              E     L
      Date
  12/31/2009      $238.8          4         4      4       5              5     4
   3/31/2009      $202.5          2         1      1       3              1     3
  12/31/2008      $195.8          2         1      1       3              1     3
  12/31/2007      $171.0          2         1      1       2              1     3
   6/30/2007      $161.3          2         1      1       2              1     3
   9/30/2006      $156.9          2         1      1       2              1     3
   6/30/2006      $151.9          2         1      1       2              1     3
  12/31/2005      $144.2          2         1      1       2              1     3
  12/31/2004      $108.7          2         1      2       1              1     2
C=Capital; A=Asset Quality; M=Management; E=Earnings; L=Liquidity

Table A-2
                                  St. Paul Risk Ratings – 2004 to 2009

Examination
or Contact        SR       TR        CMR      CRR         IR       LR       RR
Date
 12/31/2009      High     High        High    High      High      High     High
  3/31/2009      Mod.     Mod.       Mod.      Low      Mod.      High     Mod.
 12/31/2008      Mod.     Mod.       Mod.      Low      Mod.      High     Mod.
 12/31/2007      Mod.     Mod.       Mod.      Low      Mod.      High     Mod.
  6/30/2007      Mod.     Mod.        Low      Low       Low      High     Mod.
  9/30/2006      N/A       N/A        N/A      Low       N/A      N/A      N/A
  6/30/2006      N/A       N/A        N/A      Low       N/A      N/A      N/A
 12/31/2005      Mod.      Low        High     Low       Low      High     Low
 12/31/2004      Mod.      Low        Low      Low       Mod      High     Low
SR=Strategic Risk; TR=Transaction Risk; CMR=Compliance Risk; CRR=Credit Risk;
IR=Interest Rate Risk; LR=Liquidity Risk; RR=Reputation Risk; Mod= Moderate;
N/A=Not Applicable


39
     Dollar amounts are in the millions.



                                                  28
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Table A-3
                       St. Paul Balance Sheet Composition – 2004 to 2009

 Examination or                                                            Loans/Assets
                                  Assets40    Loans         Shares
  Contact Date                                                                 Ratio
   12/31/2009                      $238.8     $233.6         $208.5           97.82%
   12/31/2008                      $195.8     $191.5         $169.9           97.80%
   12/31/2007                      $171.0     $166.9         $147.0           97.63%
   12/31/2006                      $161.1     $157.0         $139.4           97.48%
   12/31/2005                      $144.2     $137.8         $130.4           95.55%
   12/31/2004                      $119.1     $112.7         $108.7           94.60%




40
     Dollar amounts are in the millions.



                                              29
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Appendix B: Risk Indicators

The following summarizes NCUA Examiner‟s Guide, Chapter 2, Attachment 2.1, which
provides examiners with guidance in the assignment of risk level.

Transaction Risk Indicators

  Factor                         Low                       Moderate                              High
  Board and            Fully understands all       Reasonably understands           Does not understand, or
  Operational          aspects of transaction      key aspects of transaction       chooses to ignore key
  Management           risk.                       risk.                            aspects of transaction risk.
  Understanding
  Responsiveness       Anticipates and             Adequately responds to           Does not anticipate or take
  to Market and        responds well to            changes.                         timely or appropriate actions
  Technological        changes.                                                     in response to changes.
  Conditions
  Risk Exposure        Only a slight probability   Possible loss to reputation,     Weak internal controls
                       of damage to                earnings or capital exists but   expose the credit union to
                       reputation, capital, or     is mitigated by adequate         significant damage to
                       earnings.                   internal controls.               reputation, or loss of
                                                                                    earnings or capital.
  Transaction          History or sound            History of adequate              History of transaction
  Processing           operations. Likelihood      operations. Likelihood of        processing failures.
  Controls             of transaction              transaction processing           Likelihood of future failures
                       processing failures is      failures is minimized by         is high due to absence of
                       minimal due to strong       generally effective internal     effective internal controls.
                       internal controls.          controls.
  Systems and          Strong control culture      Adequate operating and           Serious weaknesses exist in
  Controls             that results in systems,    information processing           operating and information
                       internal controls, audit,   systems, internal controls,      systems, internal controls,
                       and contingency and         audit coverage, and              audit coverage, or
                       business recovery plans     contingency and business         contingency and business
                       that are sound.             recovery plans are evident.      recovery plans.
  MIS                  Satisfactory                Minor deficiencies may exist     Significant weaknesses in
                                                   that relate to transaction and   transaction and information
                                                   information processing           processing activities.
                                                   activities.
  New Products or      Favorable performance       Planning and due diligence       Inadequate. CU is exposed
  Services             in expansions and           prior to introduction of new     to risk from the introduction
                       introductions of new        services are performed           or expansion of new
                       products and services.      although minor weaknesses        products and services.
                                                   exist.
  Conversion           Conversion plans are        Conversion plans are             CU may be exposed to
  Management           clear, comprehensive,       evident, although not always     processing risks due to poor
                       and followed.               comprehensive.                   conversion management,
                                                                                    either from the integration of
                                                                                    new acquisitions with
                                                                                    existing systems, or from
                                                                                    converting one system to
                                                                                    another.
  Problem              Management identifies       Management recognizes            Management has not
  Identification and   weaknesses quickly and      weaknesses and generally         demonstrated a commitment
  Corrective Action    takes appropriate           takes appropriate action         to make the corrections
                       action.                                                      required to improve
                                                                                    transaction processing risk
                                                                                    controls.




                                                        30
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Strategic Risk Indicators

 Factor                        Low                           Moderate
                                                                                      High
 Risk              Practices are an integral       Quality is consistent with the     Practices are inconsistent
 Management        part of strategic planning.     strategic issues confronting       with strategic initiatives. A
 Practices                                         the credit union.                  lack of strategic direction is
                                                                                      evident.
 Strategic         Strategic goals, objectives,    Demonstrated the ability to        Operating policies and
 Planning          culture, and behavior are       implement goals and                programs inadequately
                   effectively communicated        objectives and successful          support strategic initiatives.
                   and consistently applied        implementation of strategic        The structure and talent of
                   throughout the institution.     initiatives is likely.             the organization do not
                   The depth of management                                            support long-term strategies.
                   talent enhances strategic
                   direction and organizational
                   corporate efficiency.
 Management/St     Changes in key                  Key management or staff            Key management or staff
 aff Turnover      management or staff are         changes recently occurred.         turnover is high and poorly
                   well managed and minimal.       Succession plans are               managed. Succession plans
                   Succession plans are            adequate.                          are non-existent,
                   documented and effective.                                          inadequate, or ignored.
 Track Record      Management has been             Management has a                   Deficiencies in management
                   successful in                   reasonable record in               decision-making and risk
                   accomplishing past goals        decision-making and                recognition do not allow the
                   and is appropriately            controls.                          institution to effectively
                   disciplined.                                                       evaluate new products,
                                                                                      services, or FOM
                                                                                      expansions.
 MIS               Management information          Management information             Management information
                   systems effectively support     systems reasonably support         systems supporting strategic
                   strategic direction and         the credit union‟s short-term      initiatives are seriously
                   initiatives.                    direction and initiatives.         flawed or do not exist.
 Risk Exposure     Exposure reflects strategic     Exposure reflects strategic        Strategic goals emphasize
                   goals that are not overly       goals that are aggressive          significant growth or
                   aggressive and are              but compatible with business       expansion that is likely to
                   compatible with developed       strategies.                        result in earnings volatility or
                   business strategies.                                               capital pressures.
 Impact and Risk   Initiatives will have a         Actual practices have only         The impact of strategic
 of Initiatives    negligible impact on capital,   minor inconsistencies with         decisions is expected to
                   systems, or management          planned initiatives. Initiatives   significantly affect net worth.
                   resources. The initiatives      are reasonable considering         Strategic initiatives may be
                   are well supported by           the capital, systems, and          aggressive or incompatible
                   capital for the foreseeable     management. Decisions are          with developed business
                   future and pose only            not likely to have a               strategies. Decisions are
                   nominal possible effects on     significant adverse impact         either difficult or costly to
                   earnings volatility.            on earnings or capital and         reverse.
                                                   can be reversed without
                                                   significant cost or difficulty.
 Appropriatenes    New products/services are       New products/services will         Strategic goals are unclear
 s of New          supported by sound due          not materially alter business      or inconsistent, and have led
 Products &        diligence and strong risk       direction, can be                  to an imbalance between the
 Services          management. The                 implemented efficiently and        credit union‟s tolerance for
                   decisions can be reversed       cost effectively, and are          risk and willingness to
                   with little difficulty and      within management‟s                supply supporting resources
                   manageable costs.               abilities.                         for new product/service
                                                                                      offerings.




                                                      31
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Compliance Risk Indicators

 Factor                           Low                           Moderate
                                                                                    High
 Board and           Fully understands all aspects      Reasonably                  Does not understand, or has chosen to
 Operational         of compliance risk and             understands the key         ignore, key aspects of compliance risk.
 Management          exhibits a clear commitment        aspects of compliance       The importance of compliance is not
 Understanding       to compliance. Commitment          risk. Commitment to         emphasized or communicated
                     is communicated throughout         compliance is               throughout the organization.
                     the institution.                   reasonable and
                                                        satisfactorily
                                                        communicated.
 Authority and       Authority and accountability       Authority and               Management has not established or
 Accountability      for compliance are clearly         accountability are          enforced accountability for compliance
                     defined and enforced.              defined, although some      performance.
                                                        refinements may be
                                                        needed.
 Response to         Anticipates and responds           Adequately responds to      Does not anticipate or take timely or
 Changes             well to market or regulatory       market or regulatory        appropriate actions in response to
                     changes.                           changes.                    market or regulatory changes.
 Product and         Compliance considerations          While compliance may        Compliance considerations are not
 Systems             are incorporated into product      not be formally             incorporated in product or systems
 Development         or systems development.            considered when             development.
                                                        developing product or
                                                        systems, issues are
                                                        typically addressed
                                                        before they are fully
                                                        implemented.
 Violations & Risk   Violations, noncompliance,         The frequency or            Violations, noncompliance, or litigation
 Exposure            or litigation are insignificant,   severity of violations,     expose the credit union to significant
                     as measured by their number        noncompliance, or           impairment of reputation, value,
                     or seriousness.                    litigation is reasonable.   earnings, or business opportunity.
 Error Detection     When deficiencies are              Problems can be             Errors are often not detected internally,
 and Corrective      identified, management             corrected in the normal     corrective action is often ineffective, or
 Action              promptly implements                course of business          management is unresponsive.
                     meaningful corrective action.      without a significant
                                                        investment of money or
                                                        management attention.
                                                        Management is
                                                        responsive when
                                                        deficiencies are
                                                        identified.
 Risk                Good record of compliance.         Compliance                  Compliance management systems are
 Management          The CU has a strong control        management systems          deficient, reflecting an inadequate
                     culture that has proven            are adequate to avoid       commitment to risk management.
                     effective. Compliance              significant or frequent
                     management systems are             violations or
                     sound and minimize the             noncompliance.
                     likelihood of excessive or
                     serious future violations.
 Controls and        Appropriate controls and           No shortcomings of          The likelihood of continued violations or
 Systems             systems are implemented to         significance are evident    noncompliance is high because a
                     identify compliance problems       in controls or systems.     corrective action program does not exist,
                     and assess performance.            The probability of          or extended time is needed to implement
                                                        serious future violations   such a program.
                                                        or noncompliance is
                                                        within acceptable
                                                        tolerance.
 Training and        Training programs are              Management provides         Management has not provided adequate
 Resources           effective and the necessary        adequate resources and      resources or training.
                     resources have been                training given the
                     provided to ensure                 complexity of products
                     compliance.                        and operations.




                                                           32
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Appendix C: Enforcement Actions

The following tables provide a summary of repetitive recommendations/DORs to
correct problems identified by examiners from December 31, 2004 through March 31,
2009. The DORs are categorized by issue.

Table C-1
                                    Liquidity Risk

Examination or      DOR Items
Contact Date
12/31/2004          Develop liquidity policy and standard including ratio limits,
                    projected cash flows, prioritized funding sources, monitoring
                    responsibilities and report requirements.

12/31/05            Revise funds management/liquidity policy for ratio limits,
                    minimum cash available, reporting requirements, cash flow
                    analysis, monitor unused LOCs, quarterly reports to board on
                    borrowings and non-member deposits, and break out non-
                    member shares on the general ledger.

6/30/07             Increase liquidity to 5% of assets.
                    Revise funds management/liquidity policy for ratio limits,
                    minimum cash available, reporting requirements, cash flow
                    analysis, establish sufficient LOCs, quarterly reports to board on
                    borrowings and non-member deposits, and break out non-
                    member shares on the general ledger.

12/31/07            Revise funds management/liquidity policy for ratio limits.

12/31/08            Revise funds management/liquidity policy for ratio limits.

3/31/09             Revise funds management/liquidity policy for ratio limits.
                    Establish and maintain sufficient liquidity levels of overnight
                    funds. Execute mortgage loan sale/participation. Develop
                    strategies to fund non-member CDs as they mature. Establish
                    LOC other than at the corporate.
12/31/09            Revise funds management/liquidity policy for ratio limits.
                    Establish and maintain sufficient liquidity levels of overnight
                    funds. Execute mortgage loan sale/participation. Develop
                    strategies to fund non-member CDs as they mature. Establish
                    LOC other than at the corporate.
                    Adopt Investment policy to meet 12CFR Part 703.




                                          33
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Table C-2
                                     Credit Risk

Examination or      DOR Items
Contact Date
12/31/09            Have an independent third party review all loans, especially
                    MBLs for adequate documentation of validity and value of
                    pledged collateral.
                    Obtain legal opinion on enforceability of Assignment of CD and
                    Loan and Security Agreement and Disclosure Statements, which
                    were altered.
                    Place moratorium on MBLs until the credit union is in compliance
                    with NCUA Rules and Regulations. Refrain from refinancing
                    MBLs.
                    Revise RE loan policy to include geographic areas, types of
                    properties and required documentation.
                    Develop and adopt formal policy for RE appraisals.


Table C-3

                                   Strategic Risk

Examination or      DOR Items
Contact Date
12/31/04            Review and revise business plan including long and short term
                    goals, products and services.

12/31/05            Develop a plan to reduce non-member deposits to a maximum
                    of 20% of total shares. Address the rapid growth in deposits and
                    loans by setting limits and goals.

12/31/07            Develop and revise written IT policies and procedures where
                    needed.

12/31/09            Develop business plan to divest of impermissible accounts.
                    Document annual business plans.
                    Monitor activity to bring about changes in products and services.
                    Ensure sufficient research is performed up front with new
                    products and services for regulatory issues, compliance issues
                    and sound internal controls.




                                          34
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Table C-4
                                  Compliance Risk

Examination or      DOR Items
Contact Date
12/31/05            Complete independent testing of BSA program. Update BSA
                    policy to achieve effective internal controls for required SAR
                    filings, provide adequate due diligence to monitor accounts for
                    suspicious activity, require CIP information prior to opening an
                    account.

12/31/08            CU has not been verifying wire transfers with non-member
                    parties for OFAC – Examiner Finding.

12/31/09            Ensure all non-real estate loans will not exceed a 15-year
                    maturity including five-year balloons.
                    Develop BSA training program for officials.
                    Develop and maintain appropriate records to monitor all
                    aggregate cash deposits and withdrawals.
                    Institute procedure to document wire transfers. Should be on an
                    electronic spreadsheet.
                    Complete annual OFAC audit.
                    Timely compare entire membership to a current OFAC list
                    Ensure all non-members who are a party to any transaction are
                    compared to the most current OFAC listing.
                    TIL – Ensure loan documents are signed by all interested parties
                    to the loan.
                    TIS – Ensure additional deposits are not made to CDs.
                    Institute procedure to properly complete membership cards.
                    Ensure business accounts are within the FOM.




                                          35
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Table C-5
                                 Interest Rate Risk

Examination or      DOR Items
Contact Date
12/31/04            Develop ALM policy with NW goals, addressing interest rate risk,
                    establish cash flow risk limits, and develop internal controls and
                    reporting requirements.

12/31/07            Develop ALM policy addressing interest rate risk, establish cash
                    flow risk limits, and develop internal controls and reporting
                    requirements.

12/31/08            Develop ALM policy addressing interest rate risk, establish cash
                    flow risk limits, and develop internal controls and reporting
                    requirements.

3/31/09             Develop ALM policy addressing interest rate risk, establish cash
                    flow risk limits, and develop internal controls and reporting
                    requirements.
12/31/09            Develop ALM policy addressing interest rate risk, establish cash
                    flow risk limits, and develop internal controls and reporting
                    requirements.

Table C-6
                                  Transaction Risk

Examination or      DOR Items
Contact Date
6/30/07             Have annual audit conform to GAAS and GAAP standards –
                    Examiner Finding.

12/31/07            Have annual audit conform to GAAS and GAAP standards.
                    Contact software provider to determine procedure necessary to
                    freeze shares used as loan collateral.

12/31/08            Have annual audit conform to GAAS and GAAP standards.
                    Contact software provider to determine procedure necessary to
                    freeze shares used as loan collateral.
                    Prepare formal reconciliations of all major balance sheet
                    accounts. Investment activity had some improper recording -
                    Examiner Finding. Small payroll cash account was not
                    reconciled – Examiner Finding.

3/31/09             Have annual audit conform to GAAS and GAAP standards.
                    Contact software provider to determine procedure necessary to


                                          36
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


                    freeze shares used as loan collateral.
                    Prepare formal reconciliations of all major balance sheet
                    accounts.

12/31/09            Require “freezing” of share accounts and certificates that are
                    pledged to secure loans.
                    Address record length for printing loan documents accurately.
                    Address ability to enter security on Loan and Security
                    Agreement and Disclosure Statement.
                    Establish reasonable reporting parameters for BSA/AML.
                    Obtain DP input training for staff.
                    Establish internal controls to disallow loan advances on closed
                    end loans to make payments on other loans or to make wire
                    transfers to make payments on other loans; capitalizing interest
                    on closed end loans; adding a deposit to an existing CD;
                    redeeming a share certificate without penalty and paying
                    accrued interest at redemption.

Table C-7
                                  Reputation Risk

Examination or      DOR Items
Contact Date
12/31/09            Independent third party to review MBLs to assess potential loss.
                    Independent third party to review share secured loans for
                    existence of security.
                    Independent third party to review membership cards for
                    verification of eligibility. Establish membership eligibility
                    process.
                    Independent third party to review loan documentation for
                    corrections.




                                          37
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16


Appendix D: NCUA Management Comments




                                           38
MATERIAL LOSS REVIEW OF ST. PAUL CROATIAN FEDERAL CREDIT UNION
OIG-10-16




                                           39
